                         HOSPITAL READMISSIONS





      J.ItVICES.
                   D,J




'0


     lt""ia


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AN INSPECTIONS
                                              DECEMBER 1989
              HOSPITAL READMISSIONS





                    RICHARD P. KUSSEROW
                     INSPECTOR GENERAL




OAI. 12-88-01220                          DECEMBER 1989

                            Contr Inormtin
Contrr                      Prjec
BOTEC Analysis Corpration   David Hsia, J.   , M.   , M.
 JF
36   Street                 Health Care Branch

Cambridge, MA 02138         Offce of Inpetor General
                            330 Independence Ave. , SW
Contr                       Washigton, D. C. 20201

HHS- 100-88- 0019
                                 EX SUMY

BACKGROUN
Th inpection examies the caus and frequencies of multiple readmiions of Medicare
beneficiaries , and the implication thi has on the management of the prospetive payment
system. The readmiion of a patient may indicate premature dicharge, scheduled re­
hospitaliation , natural recurrence of the diseas, or may have no relationship to the origial
cause of hospitalition. The per revew organitions (PROs) monitor hospital
readmiions to identif premature disharges.
FIINGS
       Over one-hal of readmions        ocr beusof the natural recurrence of the disease
       (medicaly related readmiions). Approxiately, one-third of readmiions do not
                                  admiion (unrelated readmiions). Nearly one-sixh
       medically relate to the intial                                                     of
       readmiions are planned at the time of the prevous discharge (planned
       readmisions). A prevous premature disharge causes only 1. 0 percent of
       readmisions.

       PRO scrutiny of readmisions identifes no more clical incidents than random
       selection ofcas   for revew. The Health Care Financing Admtration (HCFA)
       estimates that readmiion revew annually cot $45-55 miion.


       Readmisions do not signcantly difer from other hospitalitions in the rate of
       unnecary admiions , por quality care, or premature disharge.

       Hemoglobinopathies have signifcatly higher rates of readmision, both necsary and
       unnecary. The latter compri 46. 7 percent of hemoglobinopathy bils and cost
       $47.2 millon annualy.

RECOMMNDATIONS

       The HCFA should re-ealuate the effectivenes of PRO surveilance       of readmissions
       versus surveilance of random admisions.

       The HCFA should study the effectivenes of PRO utiliztion      review of
       hemoglobinopathies.

       The HCFA should determine whether primary and sendary prevention of acute
       exacerbations of hemoglobinopathies would consume les Medicare resource than
       repeated hospitaliztions.

The HCF A did not concur with these recmmendations beuse they would require statutory
change. We continue to believe that HCFA should propo legilative changes and take
admitrative actions in order to implement our recmmendations.
                            ..............
                          ...          . ..............
                                 .........
                                      .........
                                ........
                                    ......
                                       ....... .......
                                                 . . . ......
                                                       .....    ......................
                                                          ........................
                                                        . .................
                                           ......................
                                                       ...................
                                                                ........
                                                            . . ......    . . . . ............
                                                                  . . . ........
                                                        .......................   . . ... .. .. .......
                                                                           ...... .... .......   ....
                                                                                                .....
                                                                                                 .. . . . . . .
                                                                                          . .. .. .. .. . . . . . ..
                    . . . . .. .. . . . . . .. .. . . . . . . . . . . . . . . . . . . . . .                       . ..




                                                     CONT
EXECUT SUMY.
CONTNT           ..00........... II.. ... ... 00....0.... D......                                           0.0...0 eo.

INODUCTON. .                                                                       ....000 ..00..00...
       Background. . . . . . .                                                                           .0000..

       Methodology. . .                                                                               ....0....0.

FIINGS
       Sample                                                             ..............0

       Beneficiaries                                                                                     . II II II   II .
       Disharges
       Hospital characteritics
       Readmiions. . . . . . .
       Reasons for readmiion
       Transferee hospitals                                                                 .........8041
       Number of transferee hospitals
       Diseas causing multiple admiions                                                       ......41...
       Clical review. 


RECOMMNDATIONS                   .41.......                                      e....... 0 0" De 00 e......

Appendix A- l: Medicare dicharges in FY 1985 .. .

Appendix A-2: Samplig frame            ......e.. ........................... 0........

Appendix A-3: Sample design  18........ ........... D..".. o...e.........
                       01



Appendix A-4: Beneficiary demography. . . . . . .........41.........11.......... 


Appendix B- 1:   Discharges by patient demography. ........e.e......... .......


Appendix B-2:    Disharges by hospital demography

Appendix C- l:   Readmisions by patient demography.

Appendix C-2:    Readmiions by hospital demography

Appendix C-3:    Interval between rehospitaltions

Appendix D- l: Reasons for readmision

Appendix D-2: Reasons for readmision by patient demography                                ..............0..

                                                                                            . . . . . . . . . . . . . . . . . . . . .. .. .. . .
                        . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .. .. .. . . . .




Appendix D-3: Reasons for readmiion by hospital demography

Appendix E- l:    Readmiions to diferent hospitals by patient demography
Appendix E-2:     Readmions to dierent hospitals by hospital demography
Appendix   B-3:   Distance to diferent hospital


Appendix F- l: Number of diferent hospitals                                viited in            frequency order by patient
      demography

Appendix F-2: Frequency order by be                           siz .
Appendix F-3: Frequency order by hospital demography

Appendix G- l: Diseases causing multiple disharges

Appendix G-2: Major diagnostic categories causing multiple discharges

Appendix G-3: Diseas by readmiion reasn. . . . . . . . .

Appendi G-4: Diseases by number of disharges
Appendi H- l:     Clical revew
Appendi H-2:      Clical review comparin. . .
Appendix H-3: Diseases by clical                       revew

Appendix 1- 1: HCFA comments
                                                                                     ., 


                                                     INODUCfON

   Backgund
   Medical research has long establihed that diferent subst populations                         us health servce
   unequaly.1 For example, Health Cae Financing Admitration (HCFA) fies of short-stay
   hospital bil show that 83. 9 percent of its 31.1 mion beneficiaries did not enter a hospital
   at all durig calendar year (CY 1985. Medicae therefore spent $44. 5 bilon on
   hospitalitions that benefit only the remaig one-sixh of beneficiaries. Adding Medicare
   Part B costs to the hospitaltion exnditures implies that thi inpatient subpopulation
   consumed approxiately three-fourths of Medicare s $70. 5 bilon annual budget. (Figure 1).


                                                                                            Not hospitalized
                                                                                            Hospitalized



      Benef iciaries                             Expendi tures

   Figure 1: Medicare servce utiltion

   The 17. 1 percent of beneficiaries admtted one or more times durig the year is considered
   the "hospitalition percentage. "2 Thes 5. 3 mion inpatients accrue a total of 8.3 milion
   disharges , a "hospitalition rate" of 26.6 percent (or an average of 1.57 discharges per
   inpatient).

   The hospitalitions do not distribute equally among the inpatient subpopulation.
   relatively small fraction of inpatients constitute a disproportionate share of discharges.
   Three-quarters of the inpatient subpopulation (or 11.4 percent of the beneficiary population)
   enter a hospital only once durig the year. The 1.1 percent of inpatients with six or more
   annual discharges accunt for 5. 1 percent of all hospitaliations , the 12.4 percent of
   inpatients with three or more discharges comprie 30.4 percent of hospitaliations, and the
   33. 2 percent of inpatients with two or more disharges make up 57. 1 percent of
   hospitalizations. (Figure 2).




      Hollowy JJ, Thoma JW,      & Shapiro 1. ainical and   soo-emogphic rik factors for redmiion of Medicare beneficiaries.
Health Care Financing Revew, Fall 1988; 10: 27-36.

    2 Haley RW, Culber DH , Whte JW, Morgn WM, & Emori TO. Nationwide nOlmia infection rate. Am J Epidemiol , Feb.
1985; 121 (2): 159-67 at 162.

  Benef iciaries                             Discharges
Figure 2: Anual diharges per patient

Th inpection studies the epidemiology of "readmiions." It defies a readmiion as a
single inpatient    enterig a hospital more than once in a single year. Readmiions occur for
four pricipal reasons.


        Prevous premature disharge: Medical intabilty        at the time of the   precing
       discharge caused the      readmiion (e.g., inappropriate discharge of a stil   septic
       inpatient to    lit the   hospital's fiancial los).

        Planned readmiion: The        standard treatment entails discharge of the inpatient and
        later readmion for further therapy (e.g., repeated cycles of chemotherapy for
        lymphatic cancer).

        Medically related readmiion: The       natural hitory of the   diseas involves multiple
        hospitaliztions despite proper treatment and stabilty at prevous discharge (e.
        recurence of sickle criis or of acute exacerbation of chronic obst ctive pulmonary
        disease).

        Unrelated readmision: The admiions ocur at random. Th inpatient just
        happened to " hit" twce in a particular year (e.g. , hospitaliztion for pneumonia
        followed by admiion for an unrelated hip fracture).

These categories vary in their implications for Medicare costs and their amenabilty
external control.

Pr       pr disc1uuge.
receives a pre-etablihed payment
                                 Under the prospetive payment
                                       for each disharge,
                                                                  system (PPS) the hospital
                                                            bas upon its diagnosis related group
(DRG). Because the hospital gain when the inpatient consumes les than the expcted
amount of resource , it has a fiancial incentive to disharge the inpatient as son
feasible. Disharge may ocur before medically indicated or the patient attains a stable
condition. , A premature discharge may als caus a subsequent readmiion with another
hospitalition payment. A prevous Offce of Inpetor General               (OIG) inspetion (OAI-05­
88-00740) establihes the general rate of premature disharge to be about 0. 8 percent among
all Medicare hospitalitions.    However,   thes 50 00 premature disharges annually cost
Medicare $150 millon.

The HCFA relies pricipally upon the per revew organitions (PROs) to detect premature
discharges. Among other thigs, the intial PRO "scpe of work" required them to review all
 related re-admisions" to PPS hospitals    ocrrg
                                               withi 7 days                        same
                                                                                of disharge from that

hospital for possible premature discharge. Subsuent scpe of work  exended 7  day
readmision period for PRO revew to 15 days and then to 31 days followig the initial
discharge.

Intially each PRO decided for itslf what made readmisions "related" Some PROs only
revewed readmiions biled as the same DRG. Other PROs related send stays from the
same major diagnostic category (MC), clusters of DRGs pertainng to a single organ system.
Stil other PROs compared disas coes using the International Qasifcation of Disease -­
Ninth Revion (ICD-9-CM. Th flexbilty contributed to the high inter-PRO variation in
rates of readmiion revew and rates of readmision due to a precing premature discharge.
Accrdingly, ' the third PRO " scpe of work"    added a revew of 25 percent of  readmissions             al

within 31 days for premature   discharge, regardles of whether the PRO deemed them  related.
For all related readmiions, the HCFA directed the PROs to review the hospital recrds for
both the initial and subseuent stays in asing premature dicharge.

The PROs als lit their inquires to readmiions to the        same hospital. A readmission
withi the designated time fra    , but to a diferent intitution , doe not fall under the
PROs' scpe of work for premature disharge surveilance.

Pl       re          A readmision may ocur beaus at the time of the initial discharge
the attending physician plans to readmit the patient. For example, the                      fit hospitalization
may identif the nee for an eventual coronary arery bypas, but medical considerations
dictate outpatient cardiac rehabiltation before procing with the operation. At the time of
the first disharge, the attending physician notes that the patient wi return for surgery in a
few weeks. The two stays have a relationship, but not beaus of inadequate care during the
initial hospitalition.

The prospetive payment sytem permts such "split admiions " where medically indicated
even though some simlarly situated inpatients recive all pertin nt servce durig the course
of a single stay. Theoretically, the attending physician exercises profesional judgment to
maxally benefit the patient The additional DRG payment to the hospital could playa
role in the selection of a split admision, but no objective method exits for identifyng such
ocurrence.
Other planned readmisions involve little physician disretion. Certain cancer protocls call
for multiple cycles of chemotherapy or radiotherapy at scientifcally set intervals. Thus , the
tyical diseas pattern entail an extensive ,   intial admision for diagnosis and workup,
followed by numerous , brief readmiions for treatment over a prolonged                           period. The   need
for multiple readmisions exts from the' time of the intial diagnosis.
Di srela
     underlyig
patient'
                           re             Other readmiions derie from the natural hitory of the
                                disas. Some conditions, lie  chronic obstructive pulmonary disease or
          , tend normaly to recur. Their chronic nature means that the physician cannot
sickle criis
predict when the acute exacerbations wil ocur, but knows for certai that they will require
readmiion in the near future.
Unfortunately, health servce resarch has develope relatively little data about the pattern
of servce required              by paricular chronic   dias. Th inpetion          quantifes the diseases
that most commonly caus multiple admiions. Inurers that elect to pay for succful
preventive measures for disas causing frequent readmiions could accrue considerable
savigs.

Unr             re                Finaly, multiple hospitaltions may bear no       relationship to each
                patient may suffer a series of independent incidents , each requiring
other. The unlucky
admiion. The beneficiary recives proper cae in each                    ca
                                                         and presumably return to
baselie health status. Utiltion revew can exert relatively little control over unrelated
readmiions.


     Number

                                                                                          Benef iciaries

   200
                                                                                          Discharges


   100




                                                                11 12 13    14+


Figure 3: Sample ' by annual disharges per inpatient

Methodlogy

The OIG cumulates quarterly a 0. 2 percent sample of all PPS bil                  for short- term care. For
CY 1985 , it includes 19, 84              disharges for 12   744 inpatients. To study readmiions , the
samplig frame excludes 8 518 inpatients admitted only once                  durig the year.   From the
remaing 4 226 beneficiaries having multiple admiions,                   the design employed simple random
sampling to selected 261           without replacement. The OIG requested medical records
                                     in

for all discharges for each sampled inpatient. With follow-up, it ultimately obtained 847 or
97.5 percent of the 869 medical recrds.
The Offce of Inpetor General contracted with the Health Data Intitute of Lexigton, MA
for physician review of the medcal recrds. Among other criteria , the revewers used
judgmental technques to identif premature diharges and planned readmiions.
methodology parallels the   procand standards employed in local per revew and by the
PROs. The revewers had board certifcation, per revew exrience, and current clinical
care responsibilties. Exrt consultation was avaiable for spealty      care isues ,   and physician
panels for difcult cas. An OIG       medical offcer   scrutin the overall review proc for
                               the remaing disharges as being either disease related or
consistency and bias; and clasifed
unrelated The OIG contracted with BOTEC Analysis of Cabridge, MA to analyz the
resultant data and prepare thi   report



                                          FIINGS
Saple
The sample closely miors the sampling frame in its distribution by number of annual
disharges per beneficiar (Chi-square 766. 5, 13 df, po:O. OO1). Most beneficiaries have three
discharges or les, but a few beneficiaries have a large number of incidents and one person
had 21 hospitalitions. The 7. 0 percent of inpatients who exrience six or more
disharges compri 21.0 percent of the disharges. Depite being lited to inpatients with
multiple discharges , the sample could obtain onl one medical recrd for a few inpatients.
(Appendix A-3). (Figue 3).

Table I: Beneficiary demography


                     Beneficiaries         Disharges      95% confdence interval

 Age (years)         74.                   75.            Varance not available
 Se (% male)         40.4                  46.            -0. 027 to -0.
 Length of stay                                           Not applicable
 Cas mi index                                1101         Not applicable
 Mortality (%)                             6.4            -0.016 to -0. 005




Beneficies
In 1982,   the last year for which the HCFA publihed comprehensive data, Medicare enrollees
averaged 1.4 years younger than Medicare inpatient disharges. Lack of publihed          variances
precludes calculation of a confidence interva but the large siz of the population
undoubtedly makes this diference signficant. Older beneficiaries therefore enter the
hospital at a higher rate than younger beneficiaries confrmg that older persons consume
more health care servce. Empircally, health status deteriorates with advancing age,
requirng more frequent hospitalition. Conversly, advers selection should ocur as the
  more frail elderly succumb to their disas                leavig a cohort of older,       but healthier, survvors.
  (Appendix A-4). (Table I).

  The 26. 1 milion Medicare beneficiaries                          5 millon males (40.4 percent), a
                                                        included 10.
  signcantly lower proportion than the 46. 2               percent males among disharges (95% CI - 027
  to -0. 026).
              3 The inpatient population including more males than the beneficiary population
  contradicts the traditional fidig that females consume health servce at a higher rate than
  males (despite havig superior health status). However, males in the general population
  have a lower proportion of inurance coverage than females, so male beneficiaries ' higher
  rate of hospitalition may only reflect their improved inurance coverage upon acquiring
  Medcare eligibilty.

   Beneficiares do not have average lengths of stay or reimbursment in the same sense as do
   inpatients. Dividig total hospita days or cots by the number of beneficiaries , intead of
   inpatients , necarily decreas the averages. Unsurpriingly, the general population , aged
   65 and older, has a signcantly lower mortality rate (95% CI -0. 016 to -0.005) than the
   (sicker) subpopulation of Medicare inpatients.

   Table IT: Disharge demography

                          Admiions             Readmiions                 95% confdence interval

    Age (year)            73.                  71.                         1.8 to 3.4
    Sex (% male)          46.                  48.4                        -0. 06 to 0.
     Length of stay                                                         1.3 to -0.
     Cas mix index        1.1101               1.180                       -0.3 to 0.

     Mortality (%)        6.4                  6.4                         -0.02 to 0.
                          7050                 847



   Diarges
   The National DRG Validation Study compri                     a represntative sample of all PPS discharges
   in 1985, the same     sampling frame as thi sample of readmiions. The  inpatients in this
   sample averaged a signifcant 2.6 years older than this inpetion s sample of inpatients with
   multiple discharges (95% CI 1. 8 to 3.4). Th fiding suggests that younger inpatients re­
   enter the hospital more frequently than older inpatients. While older beneficiaries generally
   have wors health, among the subpopulation of the sick, younger inpatients consume more
   servce. (Appendix B- 1).          (Table ll.




   3 US Depament of Health and Hum         Sece Heath Ca F"mancig      Admiistrtion, Offce of   Resrch and Demonstrations.
Heath Ca F"macig Prom      Statistics -   Medca and Medcad Data Bok, 198.     Batiore, MD: US    Goerment Printing Offce,
Septembe 1987 (HCFA Pub. No. 03247). P. 43.

   4 U.S. Department of Commerc Buru        of the Census Statistica Abtrct of the United States 198   Washington, DC: U.
Governent Priting Offce l08th Ed.,   1987. Table 140.
Admiions do not difer signcantly from readmions in the proportion of males, case mix
index or mortality rate. The former simarty in the distn"bution of admiions and
readmiions suggests that male and female inpatients have simar health status, unlike the
population of enrollee. Alternately, thi non-signcance may reflect the smaller siz of the
samples. The single disharge sample   als has a signcantly shorter average length of stay
than the readmiion sample (95% CI - 1.3 to -0.      3). Th
                                                        fiding probably reflects
beneficiaries with multiple anual   disharges    being sicker than other Medicare inpatients
despite their relative youth.

Hospita   charriti
Readmiions ocur to smal (95% CI OJ)08 to 0. 063) and medium siz hospitals (95% CI
  030 to 0.09) in signcatly higher proportions than to large hospitals. The former
presumably serve a population havig routine chronic disas, whereas large hospitals attract
more acute inpatients on a one time basis that better conform to the short term model of
diseas. Urban-rual location has no effect, whereas nonteaching (95% CI 0. 112 to 0. 177)
and for-profit hospitals (95% CI 0. 313 to 0. 361) have disproportionate shares of the
readmiion sample. Unsurriingly, the readmiions sample                 als includes signcantly higher
proportions of tranfers from other        hospitals and admions      for therapy. (Appendix B-2).

Large hospitals recive a signcantly higher proportion of true readmiions (95% CI ­
to - 14). Loation , teachig status, and profit control do not exercis an effect. The true
readmiions subsample largely accunts for the overall higher proportions of tranfers from
other hospitals and admiions for therapy. (Appendix C-2).

Table il: Intial   admiion demography


                    Intial           Subsequent      95% confidence
                    admiion          readmiions interval

 Age (years)        72.              70.               7 to 4.
 Se (% male)        47.              48.             -0. 1   to 0.
 Length of stay                                       1.8 to 0.4
 Cas mix index       1.1333               2018         03 to 0.
 Mortality (%)                                       -0. 13 to -0.
                    259              588



Readmiuions

The sample of beneficiaries admitted to the hospital was divided into two part. The first
one consisted of those inpatients admitted only once durig the year, whie the send
consisted of those with multiple readmiions. The send group averaged 2. 5 years younger
than the first, indicating that multiple readmiions ocur more often among younger
inpatients. (Appendix     C- l). (Table   Il.
         '/           ','
          ,.-------,/\(.
                     "'--     /---
                      ".. ..........           .. .
                                       .... ........   .     ()
                                                            ,/.................
                                                                 .. ..                ('j              . .




 100
                                                                                                                Age (years)
                                                                                                              - Percent male


                                                                                                             -e LOS X 10 days
         J'
                                       J' ,                 1\..           (7
                                                                                                                C:tI X 10

                                                                                                                :tortali ty (percent)

                       A.
                                                                            )(------7(------7(


              t-                                                             \.,1 '              "1o




Figure 4: Readmiions sequence

The subsamples of intial admiions and true readmiions do not difer in sex distribution or
length of stay. Although males enter the hospital at a higher rate than the beneficiary
population, afer the intial stay they re-enter at
                                                  comparable rates and remai for comparable
term. By defition, the                       intial admiion subsample has no mortality. The                           samplig frame
consists exclusively of inpatients                         havig multiple admiions ' and who therefore all survived
their intial hospital stays.





       Days




  1. 0


                                                                                                                    1.1     1. 2   13+
                                                            Admissions sequence
Figure 5: Days outside the hospital

Orderig the readmiion sample                                by sequence of admiion, average age declines steadily with
increasing progresion of readmiions                                      confg
                                                  the prevous hypthesis that among
inpatients , younger beneficiares have worse health. However, length of stay and case-mix
index decreas with admiion seuence , suggesting their maladies to be les serious than
average or to be follow-up treatment of the establihed disease. The small subsample                                                size
lits conclusions about gender distribution or mortality. (Figure 4).
The sequence of readmiions als       permts   calculation of the average interval between
readmiions. The time outside the hospital      bemes shorter and shorter as the chronically
il beneficiary re-enters intitutions with increasing frequency. Th trend may reflect either
the porer physiological condition of the invalid or merely that the individual spending little
time at home has more opportunities for hospitalition. (Appendix C-3). (Figure 5).

Reans for    re.admiuion

This study fids that most   readmions ocur beus            of the natural history of diseases ,
                                                                                      with
54. 7 percent of the sample being medically related readmiions. Nex most    commonly, 32.
percent of readmiions do not relate to the     precg iles.    Only 11. 0 percent of
readmisions ocur beus        a prevous hospitalitiontriggers a standard pattern of
readmiions for follow-up cae, signcantly les than the 15. 7 percent planned procures
identifed by the National DRG Validation Study (95% CI - 072 to -0. 001). The 1.0
percent of readmiions due to an imediately precng premature dicharge doe not differ
signcantly from the 0. 8 percent for all admiions (95% CI -0. 005 to 0.010). Conversely, 75
percent of the eight disharges identifed as premature result in a subsequent readmiion
and all withi 15 days. (Appendix D- l).     (Figure 6).




                                                              II    Prema ture discha rge
                                                                    Planned
                                                                    Rela ted

                                                                    Unrela ted




Figure 6: Reasons for readmiion

Th distribution suggests that third part payors exercis relatively little influence over the
frequency and timg   of readmiions. The majority wil ocur beuse of the inpatient'
health status and standardiz medical responses, rather than beaus of disretionary action.
Random surveilance for premature disharges will identif         true positives   in only 1.0 percent
of revew.

 Reason for readmiion subsamples do not dier in gender distribution , length of stay, or
 mortality. Readmiions following a prevous premature disharge and unrelated readmissions
 have signifcantly higher average ages, both fidings probably reflecting the more frail health
 status of very elderly inpatients. In addition,   planned readmisions have significantly higher
average case mi index whie medically related readmiions have signcantly lower case mix
index A high proportion of readmiions for high intensity, cardiac servce accunts for the
former trend, whie cancer follow-up caus the latter. (Appendix D-2).

The low frequency of readmions      sendary to a precing premature disharge largely
precludes hospital demographic trends. Unsurriingly, such readmiions all ocur withi 15
days of the intial disharge, signcantly soner than average (95% CI 0. 1 to 0. 8). Large
hospitals (95% CI 0. 1 to 0. 3) and urban hospita (95% CI 0. 1 to 0. 2) have a
disproportionate share of planed readmiions, no doubt due to the diversity of therapeutic
servce available at large, urban medical centers. By defition, planned readmiions come
for planned procures, largely on an elective basis, and maiy via admiion orders from the
attendig physician. Simarly, therapy nee caus signcatly more medically related
readmiions (95% CI 0. 1 to 0. 1), whie unrelated readmiions nee more diagnostic workups
(95% CI 0. 1 to 0. 2). (Appendix D-3).


  Number of discharges





                  .:10            10-               50-            100-1000             1000+
                                           Distance (miles)

Figure 7: Distance to diferent hospital



Trafere hopita


Theoretically, inpatients move from small, rural hospitals to large , urban intitutions because
their diseases require the latter s more sophiticated diagnostic and therapeutic facilties.
Partitioning the readmision sample into readmisions to the same hospital versus
readmiions to a diferent hospital permits verication of this clasical hypthesis. Under
this servce regionaltion model, newly diagnose inpatients may return to their local
hospitals for rehabiltation or treatment clos to their familes   and support networks
obscuring any regional referral pattern.
Readmiions to the same versus diferent hospital do not difer in gender distribution
length of stay, or mortality. Patients readmitted to diferent hospitals are signcantly
younger than patients readmitted to the same hospital (95% CI 1.83 to 6. 16).     Possibly
younger inpatients warrant more aggesive diagnosis       and treatment, or older inpatients
prefer not to travel to distant centers for defitive servce. As exted from both referral
pattern and servce available, readmions to hospital diferent from the disharging
hospital have a signcantly higher average cas mi index (95% CI -0.37 to -0. 10) and enter
larger intitutions (95% CI 96. 7 to 11. 3). (Appendix E- l).


Readmiions to diferent intitutions do not difer in hospital characteritics. Th finding
may capture a litation in the analysis, rather than a refutation of the regionalition
hypthesis. IT inpatients transfer to an urban center and subseuently re-enter the local
hospital, the readmiions wi demographicay cancel each other out. (Appendix E-2).

Th litation would not apply to measurig the ditance to the new hospital            It would
merely result in two trips of the requisite length. Over a fih of trips ocur withi the same
city, nearly one- thid total les than 10 miles, and two- thids les than 50 mies. These
relatively short distance could reflect either effective regionalition of servce or inpatient
preference about accptable travel times. Patients travelig long distance for readmission
are generally represent beneficiaries who nee hospitalition whie vacationing in the South
during the witer, rather than the seerely il seekig relief at national medical centers.
(Appendix E-3). (Figue 7).



                                                                           Hospi tal #1


                                                                           Hospi tal #2


                                                                           Hospi tal #3


                                                                           Hospi tal #4
   Patients                      Discharges
Figure 8: Hospital frequency order

Number of   trfer hospita
To avoid the problem of admiions to diferent hospital canceling out each other
demographic contrasts, an alternative analysis notes that no patient enters more than four
different hospitals. Each hospital is ranked by the number of times it disharged this patient.
The hospital with the most disharges bemes #1, conceptually the local hospital nearest
the patient. The hospital with the second most discharges for the patient bemes #2 , etc.
The latter hospitals with fewer discharges should include the referral centers not identifed by
the simpler "different hospital" analysis. (Figure 8).
As hospitals increas infrequency order, the average age drops and percent of males
increas. Except for hospital #4, mortality and ca mi index als increas. Length of stay
shows no trend, whie by defition the average   number of disharges per hospital decreases.
(Appendix F- l).

As origialy    expted the higher frequency orders disproportionately include large, urban
and teachig hospitals. Interestigly, thi group als includes more for- profit hospitals. This
fiding contradicts the exptation that referral centers consist primariy of nonprofit
intitutions. (Appendix F-2).
         causing multiple 
     admk

Examination of the ICD- CM coes for each inpatient's seuence of diharges reveals that
a single chronic disas usualy accunts for most of each persn s hospitaltions. Grouping
thes underlyig pathologies by spealty or organ system: Cardiology, pulonology, and
gastroenterology accunt for 54.9 percent of disas whether measured by number of
inpatients or discharges. Only in general hematology doe the proportion of discharges
signcantly exce the proportion of inpatients, indicating a high rate of readmiions (95%
CI -0. 06 to -0. 01). Upon disection of the underlyig ICD- CM coes, hemoglobinopathies
accunt for thi discrepancy. Th fiding            conf
                                                   the clical impresion that such patients
repeatedly present in criis.       (Appendix G- l).    (Figure 9).




                                                                     Cardiology
                                                                     Pulmonology
                                                                     Gastroenterology
  Patients                        Discharges                         Other

Figure 9: Diseas causing        related   readmiions

Hemoglobinopathies group to DRG 395, red bloo cell disrders. Although thes bils
constitute only 0. 8 percent of diharges and 0. 5 percent of reimbursement, the average
payment of $2, 063 in Fiscal Year (FY 198 sum to over $101 million. Some primary (e.
genetic screenig, famiy counseling) and sendary preventive measures (e.g. , hydration
activity restriction) can reduce the nee for hospitalition. Medicare support of such
activities could have a very high cost-benefit ratio, despite their being outside its traditional
mision. A reduction in the 46. 7 percent of unnecary admisions hemoglobinopathy for
could save $47. 2 milion annually in hospitalition expns.


Agegated as major diagnostic categories, the readmiion            sample s proportions do not
generally difer from        the distribution of all disharges. However, readmiions include a
signcantly higher         fraction of respiratory disas (95% CI 0. 01 to 0. 05), principally chronic
obstructive pulmonary disas, pneumonia, and lung cancer.            Th finding als conform to
the natural hitory of thes disas, being characteri by repeated hospitalition for                acute
exacerbations of the chronic, progresive,     underlyig pathology.      (Appendix G-2).


Reasons for readmion (e. , medically related readmiion) do not particularly cluster by
diseases (e.g., cancer). Gastrointestinal disas compri half of rehospitalitions secndary
to a precing premature disharge. Planed readmiions include more cardiology and
gastroenterology cas. Unplaned, (but) medically related readmiions have a high
proportion of respiratory disas, pricipally chronic obstructive pulmonary disase. As
expted, unelated readmions show no paricular disas trends. (Appendi G-3).

Based on the average number of times the patient enters the hospital anually        disease;
                                                                                       by
cancer, hematology (hemoglobinopathies), pschiatry, congestive heart failure, and chronic
obstructive pulmonary    dias  have particularly high averages. Thes trends also conform to
their natural hitory as chronic    disas. In addition, myocardial inarctions constitute so high
a share of readmiions that, they retain clical importance despite their relatively low
frequency of readmisions per patient. (Appendix G-4).



 Rate (percent)

                                                                              c= Readmissions
                                                                                    National DRG Study



    10 .




             Hnneeded admissions   Poor quality care   Premature discharqe




Figure 10: Clical    revew   comparn
Clca reew


Contractor physicians categori 162 medical recrds as documenting unnecary admision
por quality care, or prem'1ture discharge. (Appendix H- l). Thes rates do notStudy.
                                                                              signifcantly
difer from the random selection of disharges of the National DRG Validation           This
finding suggests that PRO revew of readmiions identifes no   more clical incidents  than a
random     proc.  (Appendix H-2). (Figure 10).

By contract , the PROs designated discharges for       review in several speific   ways during their
send "scope of work" (approxiately 1987-88).
       Random review: A 3. 0 percent sample of all disharges (12. 8 percent of all PRO
       revew).
       Readmiions revew: Al re-entries to the same hospital ocurrng within 14 days of
       the index disharge (22.6 percent of "  ca
                                               selected" for PRO revew). The HCFA
       has subsequently increas the revew period to 30 days.

       Other: Various selection algorithm such as outliers, designated DRGs, etc. (the
       remaing 64.6     percent).


Since the readmiions revew ditinguishes clical incidents no better than random review, it
contnbutes nothing to PRO deterrence of unecary readmisions or medically appropriate
behavior by the clical communty. Disntinuing it would elimate 36. 9 percent of PRO
revew (each readmiion entai revew of both the fit and send disharge). The HCF
estimates that readmiion revew annually cot $45- 55 mion.


Unnecary readmiions   ocur most commonly in ophthalmology, hematology, and lung
cancer. Improved PRO utiltion revew has        deceas
                                                   the incidence of         unnecary
                                                                              lens
procures subseuent to the date of thi samplig frame. Hemoglobinopathies ' amenabilty
to preventive measures and their high rate of unnecary hospitalitions make them a high
yield target for further study.



General neurology and hematologica oncology have the highest rates of por        quality care.

Scentifc   developments have rapidly advance both speialties in recnt years.       Premature
disharge   ensues most frequently followig sepsis, gastrointestinal bleeing, and   trauma
although the small number of events detracts from the statistical reliabilty of these rates.
(Appendix H-3).


                                    REMMATIONS

        The HCF A should re-ealuate the effectivenes of PRO surveilance of readmissions
        versus sureilance of random admisions.

        The HCFA should study the effectivenes of PRO utilition revew of
        hemoglobinopathies.

        The HCF A should determe whether primary and sendary           prevention of acute
        exacerbations of hemoglobinopathies would consume les      Medicare resource than
        repeated hospitalitions.


The HCFA did not concur with thes recmmendations beaus they would require statutory
change. We continue to believe that HCFA should propose legilative changes and take
admintrative actions in order to implement our recmmendations.
Appendix A- I:   Medca dishaes in FY 198
Medicare beneficies

          Aged                                     28 mion
          Disbled                                   2.9 mion
PPS disharges
         Number                                     8. mion
         (Hospitaliztion rate)
PPS beneficiares diharged
                                                 (26.     pet)
         Number                                     S.3    mion
          (Hospitation perctage)                 (17.     pet)

Appendix A-2: Samplig frme

Annual dishaes        Beneficiaries                       Tota dis
per beneficiry        Numbe (perct)                       Numbe (pert)

                         8,s18        (66.8)                8,s18     (42.9)
                         2,64S        (20.                  S,2       (26.
                           913         (7.                  2,739     (13.8)
                           374         (2.9)                  496      (7.s)
                           IS6         (1.2)                  780      (3.
                                       (O.s)                          (0.2)
                                      (0. 21)                 189     (0.01)
                                      (O. IS)                 IS2.   (0.00)
                                      (o.S)                          (0.00)
                                      (o.S)                          (0.00)
                                      (0.3)                          (0. 00)
                                      (0.2)                    24-   (0.001)
                                      (0.3)                          (0. 00)
14+                                  (0.01)                          (0.001)
Total                   12,744      (100.                   19,8     (100.)



Appendix A-3: Saple design

Disharges per        Rea ested                                  Obtained
beneficiary          Beneficiries           Disharges           Beefici          Dises
                           112                                             111
                                                  198
                                                  196                               180




14+

Total                      261                    869                      259      847

                               (y)                                                                             (%)




Appendix A-4: Beeficiar    demogphy
                               Age                    Geder                 LOS            Ca mi               Mortlity
                               (yea)                  (% ma)                (da)           index                                      (millon)

Beneficiries                   74.                    40.                                                      S.51                    26. 1 milion
Disharges                      7S.                    46.                   7.2             11012                                        9 miJion

t95% confidence interaH                               t -0.27   to    02)                                          016 to      OOS)


Sourc U. S. Health Ca Fmancig           Adtrtion
                                            Offce of                 Res an DeDStrations Medca           and Medicaid Data    Bok 1986. Baltimore,
MD: HCFA Pub. No. 03247, Septembe 198. Table 3. 10.
1. U. S. Depament of Heath &. Hum Servce Public Heath
Statistics of the United States 198,   Vol. II -
                                                                      Se Cete Di Contrl, Nationa Ceter for Heath
                                                                                     for
                                                   Mortty, Par A Hyatts MD: DHH Pub. No. (PHS) 881122 198. P. 312
                                                                                                                                      Statistics. Vital

2 Delaney AM &. Hsia DC (E.).           Nationa    DRG Valdation Stud. Legt MA Heath Data Intitute Novembe 1987.



Appendix B- 1: Dishaes by patient demogphy

                               Age                    Geer                  LOS            Ca mi               Mortlity
                                                      (% mae)               (da)           index
National DRG
Validation Study               73.                    46.                   7.5            1.101                                       70S0
Readmisions saple              71.                    48.                   8.3            1.80                                        847
t95% confidence interv)              8 to 3.                06 to 0.1)      H.3 to   .3)      .3 to 0.                02 to 0.02)
                               (%)                 (%)




Appendix B-2: Dishaes by hospital demogphy
                       Nationa DRG      Reaions            (95% confdence
                       Validation       Samole                       inteIH

-:100                  Zl76   (18.      186      (21.       (0.00 to 0.(6)
100-299                       (37.5)    372      (43.       (0.03 to 0.(9)
30+ be                        (44.               (33.      (-0. 135 to-0.64)

Urban                  4374   (71.5)    586      (69.2)    (-0.055 to 0.(9)
Rur                    '176   (28.      '11      (30.8)    (-0.00 to 0.055)

Teaching               1854   (31.)     148      (17.3)    (-0. 177 to -0.112)
Nonteaching            5195   (68.               (81.        (0. 112 to 0. 177)

Profit                  689    (9.               (42.6)     (0.313 to 0.31)
Nonprofit              6361   (90.               (24.      (-0.31 to -0.313)
Public                                  273      (31.

Source

Physician                     (51.7)    393      (46.      (-0.08 to -0.017)

Clinic                  136    (1.                 (1.      (-0.010 to 0.0()

HMO                            (0.                 (0.)     (-0.00 to 0.(01)
Hospital                116     (1.)              (5.       (0.27 to 0.48)
SNF                             (0.               (0.      (-0.014 to -0.(01)
ICF                             (2.8)             (3.5)     (-0.00 to 0.019)
                       2786   (40.4)             (42.0)     (-0.014 to 0.056)
Unknow                         (0.                (0.       (-0.00 to 0.0()

Cause

Workup                 5569    (778)    598       (69.8)   (-0.102 to -0.042)

Therapy                 179     (2.7)   107       (12.)      (0.86 to 0. 113)

Planned                109     (17.     110       (12.8)   (-0.072 to -0.018)

Outpatient              146     (1.                (3.       (0.00 to 0.02)

failure



Emergency              1433    (20.                (9.5)   (-0. 139 to -0.(8)
Urgent                 3791    (52.)    554       (64.       (0.09 to 0. 165)
Elecive                168     (25.     212       (24.      (-0.04 to 0.02)
Unknow                          (1.0)              (0.)    (-0.019 to -0.00)

Total                  7050   (100.     847      (100.

1. Disharge weighted
                                                                                                          (%)




Appendi C- l:   Readmions by patient demogphy

                                     Age             Geder         LOS         Ca mi                 Mortlity
                                  (years)       (% mae)           (da)             index

Initial admiions                     727                47.          7.8          1.333                           259
Subsuent admisions                   70.                48.          8.5            2018                          588
(95% confidence interJ     (0.7   to 4.3J   (-G. l   to O.     8 to 0.     (0.03 to O.2J   (-G. 13   to -G. 06J


     ssion       nce
                                     727                47.          7.8           1333                           256
                                     728                482                                                       145
                                     71.2               49.                        2746
                                     70.                40.                       1.781                   11.
                                     69.                53.                       1.091                   18.
                                     68.                40.          5.5           939                    15.
                                     66.3               40.                        9337
                                     622                40.                        782                    10.
                                     51.4               51.5                       8565

Reason for redmi
Preous prematur dishae               827                33.3                      1.181
Planned redmiion                     71.4               57.          8.3          21403
Related redmion                      68.                50.                        0582                   11.2    321
Unrelated redmiion                   73.                43.                       1.168                    8.3    194

Source
Physicin offce                       70.                49.2                       2118
Clinic                               70.                222         13.            0586                    11.
Another hospita                      68.                55.                        887                    23.3
Intermediate care facity             79.                36.         10.5          1.524
Emergency rom                        69.                49.                       1.08                     11.9   252
Unkow                                74.                                           4110

Cause
Workup                               70.3               48.2                      1.22                     10.    407
Therpy                               69.                40.          6.5                                   10.
Planned redmision                    71.                59.                       1.891
Outpatient failur                    65.5               59.         10.5          1.0507


Emergency                            69.                50.                       1.3                      25.
Urgent                               70.                49.                       1.259                     8.4   396
Elective                             71.2               45.          6.5          1.31                            138
                                      (%)               (%)




Appendix C-2:   Readmiions by hospita demogphy
                           Intial             Subsuent         (95% confdence
                           admissio                 misi                 inter)

.c 100                              (21.9)    129     (220)      0.61 to 0.60)
100-29
     be                   152       (58.5)            (23.5)     (0. 137 to 0.28)
30+ be                              (19.      239     (40.5)   (-0.279 to -0. 140)

Urb                       175       (67.      411     (69.     (-0.08 to 0.46)
Rur                                 (32.)     177     (30.     (-0.04 to 0.(8)

Teachig                             (15.8)    108     (18.     (-0.08 to 0.31)
Nonteaching               219       (84.              (81.8)   (-0.031 to 0.08)

Profit                    114       (43.8)    251     (428)    (-0.061 to 0.08)
Nonprofi                            (25.      144     (24.5)   (-0.058 to 0.06)
Public                              (31.)     1?J     (32.7)   (-0.08 to 0.053)

Source

Physician                 133       (51.              (443)     (-0.00 to 0. 141)

Clinic                               (1.9)             (1.5)    (-0.015 to 0.23)

HMO                                   (0.)             (0.)

Hospital                              (1.              (73)    (-0.08 to -0. 02)

SNF                                   (03)             (0.)      (0.001 to 0.00)

ICF                                   (3.              (3.      (-0.03 to 0.02)

                          108       (41.5)    252     (42.9)    (-0.08 to 0.058)
Unkow                                 (0.              (0.      (-0.007 to 0.00)

Caus

Workup                    191        (73.     407     (69.      (-0.02 to 0. 113)

Therpy                                (6.5)           (153)    (-0. 136 to -0.039)

Planned                              (15.8)           (11.      (-0.00 to 0. (8)

Outpatient                            (3.              (3.      (-0.027 to 0.02)

failure



Emergency                            (10.)             (9.      (-0.031 to 0.055)
Urgent                    158        (61.2)   396     (673)     (-0. 131 to 0.00)
Elective                             (28.5)   138     (23.5     (-0.014 to 0. 113)
Unknow                                (0.)             (0.)

Tota                      259       (100.     588    (100.



Appendix C- 3: Intervl between rehospitaliztions


Admisions           Days outside hospital




5-6
6-7
7-8


 10-11
 11­
 12-13
 13­
Appendix D-l:   Reans (or redmiion
                                 Numbe (percnt)

Preous premature diharge                       (1.)
Planed redmiion                               (11.
Related redmiion                     321      (54.
Unrlated redmision                   194      (33.

Tota                                 588     (100.)



Appendix D-2: Reans (or    redmion by patient demogphy
Average             Preous prematur
                               dihae
                                                                  Pla
                                                              redmiion
                                                                                            Related
                                                                                       redmiion
                                                                                                                     Unrlated
                                                                                                                 redmion
(95% en

                      827 (4.4   to 2O.                 71.4 (-1.7 to 4.     68. 0 (-. 0 to oO.             73. 1 (0.8 to 5.
Age (years)
Gender (% male)       33.3 (oO. 6 to 0.3 J            59.7 (oO.02 to oO.      50.2 (oO. l to O.           428 (oO. l to 0. 02J
LOS (days)               7 (-8.2 to 26J                 8.3 (-21 to 1.               4 (-1.3   to 1.)         0 (oO. 8 to 1.8J

Ca  mix index       1.181 (oO. 7 to O.5J              2140 (0.7 to 1.2J    1.0582 (oO. 2 to oO.         1.166 (oO.   2 to 0.3)
Mortlity (%)             0 (oO.3 to O.                   0 (oO. l to O.      11. 2   (oO. 02 to O.           2 (oO. l to 0.   04)
Appendi D-3: Reans for redmion by hospita demogphy
Number               Preous prematur                      Plaed                      Related          Unrlated       Total
(95% cn                           dihae               redmiion                redmion               redmiion
dOO                         2 (-0.2    to 0.     7 (-0.2 to -0.          71 (-0. 1    to 0.     49 (-0. 1    to 0.    129
100-299                     2 (-0.4    to 0.3)   23 (-0.2 to 0.         114 (-0. 1    to 0.     81 (-0. 1    to 0.

30+ be                      2 (-0.5    to 0.3)    37 (0. 1 to 0.3)      136 (-0. 1    to 0.     64 (-0.2     to 0.    239

Urb                         3 (-0.6    to 0.      55 (0. 1 to 0.        22 (-0. 1     to 0.    124 (-0. 1    to 0.    411
Rur                         3 (-0.2    to 0.     12 (-0.2 to -0.         92 (-0. 1    to 0.     70 (-0. 1    to 0.    177

Teachig                     0 (-0.5 to 0.        16 (-0. 1    to 0.2)    68 (-0. 1    to 0.     24 (-0. 1    to 0.    108
Nonteaching                 6 (-0. 1   to 0.5)   51 (-0.2     to 0.     253 (-0. 1    to 0.    170 (-0. 1    to 0.


Profit                      1 (-0. 7   to 0.     34 (-0. 1    to 0.     147 (-0. 1    to 0.     69 (-0.2     to 0.    251
Nonprofit                   3 (-0. 1   to 0.     17 (-0. 1    to 0.      73 (-0.1     to 0.     51 (-0. 1    to 0.    144
Public                      2 (-0.4    to 0.     16 (-0.2     to 0.     101 (-0.1     to 0.     74 (-0. 1    to 0.    193


Phyicin                     4 (-0.2 to 0.         59 (0.3 to 0.         123 (-0. 1    to 0.     74 (-0. 1    to 0.

Clnic                       0 (-0. 1   to 0.       0 (-0. 1   to 0.       7 (-0. 1    to 0.      3 (-0. 1    to 0.

Hospita                     0 (-0.3 to 0.          7 (-0. 1   to 0.      26 (-0. 1    to 0.     10 (-0. 1    to 0.

ICF                         0 (-0.2 to 0.          0 (-0. 1   to 0.      10 (-0. 1    to 0.     12 (-0. 1    to 0.

Emergency Room              2 (-0.5 to 0.3)        1 (-0.5 to 0.3)      155 (-0. 1    to 0.     94 (-0. 1    to 0.    252
Unkow                       0 (-0. 1 to 0.         0 (-0. 1   to 0.        0 (-0. 1   to 0.      1 (-0. 1    to 0.




Workup                      4 (-0.3 to 0.3)       0 (-0.8 to -0.        237 (-0. 1 to 0.        166 (0. 1 to 0.
Therapy                     1 (-0.3 to 0.3)       0 (-0.2 to -0.          69 (0. 1 to 0.        20 (-0. 1 to 0.
Planned proure              1 (-0.2    to 0.3)    67 (0.8 to 1.)         1 (-0.2 to -0.          0 (-0.2 to -0.
Outpatient faur             0 (-0.2    to 0.       0 (-0. 1 to 0.       -14 (-0. 1 to 0.         8 (-0. 1    to 0.


Url!encv
Emergency                   0 (-0.3 to 0.          2 (-0. 1 to 0.        28 (-0. 1    to 0.     24 (-0. 1 to 0.
Urgent                      5 (-0.2    to 0.5)    5 (-0.7 to -0.5)       !4 (-0. 1    to 0.    146 (0. 1 to 0.         396
Elective                    1 (-0.4    to 0.3)    60 (0.5 to 0.8)        53 (-0. 1 to -0.      24 (-0.2 to -0.         138

   mision
                            5 (-0.1    to 0.      37 (-0. 1   to 0.     109 (-0.2 to -0.        105 (0. 1    to 0.     256
                            1 (-0.4    to 0.3)    17 (-0. 1   to 0.      74 (-0. 1 to 0.        53 (-0. 1    to 0.     145
                            0 (-0.4    to 0.      10 (-0. 1   to 0.      47 (-0. 1 to 0.        20 (-0. 1    to 0.

                            0 (-0.2    to 0.       1 (-0. 1   to 0.      26 (-0. 1 to 0.         5 (-0. 1 to 0.
                            0 (-0. 2   to 0.       1 (-0. 1   to 0.       14 (-0. 1 to 0.         5 (-0. 1 to 0.
                            0 (-0.2    to 0.       0 (-0. 1   to 0.       12 (-0. 1 to 0.         3 (-0. 1 to 0.
                            0 (-0. 1   to 0.       0 (-0.1    to 0.        9 (-0. 1   to 0.       1 (-0. 1 to 0.
                            0 (-0. 1   to 0.       0 (-0. 1   to 0.        6 (-0. 1   to 0.       0 (-0. 1 to 0.
                            0 (-0.2 to 0.          1 (-0. 1   to 0.       24 (-0. 1   to 0.      2 (-0. 1 to -0.

Dav     between redmissio
0-15                         6 (0. 1   to 0.      44 (-0. 1   to 0.      187 (-0. 1   to 0.    117 (-0. 1    to 0.     354
16-30                       0 (-0.4    to 0.       5 (-0. 1   to 0.       51 (-0. 1   to 0.     20 (-0. 1    to 0.

31-45                       0 (-0.3 to 0.          5 (-0. 1   to 0.       30 (-0. 1   to 0.     15 (-0. 1    to 0.

                            0 (-0.2    to 0.       3 (-0. 1   to 0.       18 (-0. 1   to 0.     10 (-0. 1    to 0.

61­                         0 (-0.2    to 0.       1 (-0. 1   to 0.       14 (-0. 1   to 0.     11 (-0. 1    to 0.

91-120                      0 (-0.2    to 0.       2 (-0. 1   to 0.        7 (-0. 1   to 0.       8 (-0. 1   to 0.

121+                        0 (-0.2    to 0.       7 (-0. 1   to 0.       14 (-0. 1   to 0.      13 (-0. 1   to 0.



Total                                                                       321                    194                 588
Appedi E- 1: Readmions to diferent hospita by patient demogph

                 Same hospital      Diferet hospita          t9S% confidence interv)


Age (yea)
                   71.9                    67.8            83 to 6. 16)
Se (% male)                  48.3                    48.      t -0. 09   to o.S)
LOS (da)                      8.3                              t -1.4 to 1.3)
Mortty (%)                                            9.2    t-O. OS to 0.003)
Ca mi index                1.30                 1.3           t-O.37 to -0. 10)




Appedi E-2: Readmiions to diferet hospita by hopita                     demogphy

                          Same hosc tal        Differet hoscita            t9S% confden
                          Number    Percnt Numbe            Pert                       inte)
Averge                        291                    345                     96.7 to -11.3)

-:100                         155     (23.                    (19.          t-O. 03 to 0. 11)
10029                         25S     (38.                    (34.          t -0.04 to 0. 12)
30+ be                        254     (38.3)                  (46.         t-O. 16 to 0. 001)

Urbn                          451     (62.6)          135     (73.          t -0. 13 to 0.2)
Rur                           212     (32.0)                  (36.3)        t -0. 02 to 0. 13)

Teaching                      109     (16.                    (21.2)        t -0. 11   to 0.01)
Non-teaching                  554     (83.            145     (7S.          t-O. 01    to 0. 11)

Profit                                (44.                    (39.          t-O.03 to 0.13)
Non-profi                     160     (24.                    (26.          t-O. 10 to  05)
Governent                     210     (31.7)                  (34.2)        t -0. 10   to 0.05)

Total                         663     (78.3)          184     (21.7)



Appendix E-3: Distance to dierent         hospita
                                    Number                  (pert)
Sae city                                            (22)
Same state, diferent city 118                       (64.

            -:10 mies                                          (8.

            10-49 mies                                        (29.

            50-99 mies                                        (17.)

          100+ mies                                            (8.7)

Different state                                     (13.

            -: 10 mies                                         (1.

            10-49 miles                                        (1.)

            50-99 mies                                         (3. 8) .

            100. 100 mies                                      (2.2)
            100+ miles                                         (4.

Tota                          184               (100.

Appendix F- 1:   Numbe of diferent hospita viited in fruency order by patient demogphy
                                mber of differt hOlDita oer   oatient
                                                                          TotaVAverge

Age (years)
         Fllt hospita
             728      720      67.2       327      71.
         Send hospita                       71.      68.3                69.
         Th hospital                                 68.3       32.6     60.
         Fourh hospita
         Tota                       72.     71.      67.        32.      71.

Se (% mae)
         Fllt hospita               50.     41.      48.       100.      48.5
         Send hospital                      44.2     40.       100.      45.
         Thir hospital                               47.       100.      59.
          Fourth hospita                                       100.     100.
         Tota                       50.     42.      46.       100.      48.

LOS (days)
          Fllt hospita

          Send hospital                       9.3
          Th hospita                                  7.5         2.6
          Fourh hospita                                          10.      10.
          Total                               8.8                 2.4      8.3

Mortlity (%)
          Fllt hospital
                              2.2
          Send hospital
          Third hospita                              23.5                 18.2
          Fourh hospita
          Total                               6.3

Ca mix index
          Fllt hospital
          1.32     1.796    1.514       7116    1.339
          Send hospita                     1.4051   1.34        662     1.3
          Thir hospita
                              7133               1.5117
          Fourh hospita                                         7758      7758
          Total                   1.320     2613     2767               1.80
Averge disharges per hospita
          Fllt hospita
                       2.6      4.8                 3.8
          Send hospita                        1.2      2.2
          Third hospita
          Fourh hospita
          Avege                               2.1      3.3        6.8
Appendi F-2: Freuency order by be           siz
Number                            mbe of differnt hosDita oer            tient
(percnt)                                                                                     TotaVAverge

Al patients                 148                                                                      259

Al disharges
         F1It hospita       452                     183                                              689
           Send hospital                            104                                              135
           Th hospita
           Fourh hospital
           Tota           452                                                                        847

.:100
           F1It hospita              (19.5)                     (36.             (37.       (0.      171    (24.
           Send hospita                                          (4.             (36.       (0.)            (10.4)
           Th hospita                                                             (5.       (0.)             (4.
           Four hospita                                                                     (0.)             (0.)
           Tota                      (19.5)                     (24.             (31.)      (0.      186    (22.

10029
           F1It hospita     178      (39.                       (39.             (31.)      (0.      265    (38.5)
           Send hospita                                         (35.             (40.     (100.             (39.3)
           Third hospita                                                         (23.5)     (0.             (18.
           Fourth hospita                                                                   (0.              (0.
           Tota             178      (39.           110         (38.3)           (322)     (28.      322    (38.

30+
           FIrst hospita    186      (41.                       (24.             (31.)    (100.      253    (36.
           Send hospita                                         (59.             (24.       (0.             (50.
           Th hospita                                                            (70.     (100.             (77.3)
           Fourh hospita                                                                  (100.            (100.
           Tota          186         (41.           106         (36.             (36.      (71.4)    339    (40.
Appedix F-3: Frequency order by hospita demogphy
Numbe                               mber of different hosDitals    ocr oatient
(perct)                                                                                             Tota

Urb
             F1It hospita     323      (71.5)      103     (56.3)                (55.     (100.)            (66.
             Send hospita                                  (827)                 (520)    (100.)     105    (77.
             Th hospital                                                         (88.     (100.)            (90.
             Four hospita                                                                 (100.)           (100.)
             Tota             323      (71.5)      189     (65.                  (60.     (100.)     586    (69.

Rur
             F1It hospita     129      (28.5)              (43.                  (44.       (0.)            (33.
             Send hospita                                  (17.3)                (480)      (0.)            (22.
             Th hospita                                                          (11.       (0.)             (9.
             Fourh hospital                                                                 (0.              (0.
             Tota             129      (28.5)              (75.3)                (39.       (0.)     261    (30.

Teachig
             First hospita             (17.                (11.5)                (11.)    (100.)     116    (16.
             Send hospita                                  (21.2)                (120)      (0.)            (18.
             Th hospita                                                          (11.8)   (100.)            (31.8)
             Fourth hospita                                                                 (0.)             (0.
             Tota                      (17.                (15.                  (11.5)    (66.      148    (17.5)

Non-teachig
             F1It hospita     371      (821)       162     (88.5)                (88.       (0.)     573    (83.
             Send hospital                                 (78.8)                (88.     (100.)     110    (81.5)
             Th hospita                                                          188.       (0.)
                                                                                          (100.)
                                                                                                            (68.
                                                                                                           (100.)
             Fourh hospita
             Tota             371      (821)               (85.                  (88.5)    (33.3)    699    (825)

For-profit
             F1It hospita     197      (43.                 (41.)                (33.3)   (100.)            (43.
             Send hospita                                   (43.3)               (20.     (100.)            (41.5)
             Thir hospital                                                       (41.2)   (100.             (54.
             Fourth hospita                                                               (100.            (100.
             Tota             197      (43.        120      (41.8)               (31.)    (100.      365    (43.

Non-profit
             F1It hospita     104      (23.                 (24.                 (40.       (0.)     166    (24.
             Send hospita                                   (29.                 (320)      (0.)            (28.
             Thrd hospita                                                        (23.5)     (0.)            (18.
             Fourh hospita                                                                  (0.              (0.
             Tota          104         (23.                 (26.                 (34.5)     (0.)            (24.

Government
             F1It hospita     151      (33.4)               (35.                 (26.       (0.)     227    (32.
             Send hospital                                  (26.                 (48.       (0.)            (29.
             Third hospital                                                      (35.3)     (0.)            (27.3)
             Fourth hospita                                                                 (0.)             (0.)
             Total            151      (33.4)               (321)                (34.5)     (0.)     273    (322)
                                                   (%)              (%)




Appendix G-l:   Dis causing multiple disha
                                           ients            Dishal'es        (95% confidence
                                                                                       interaH

Nonspec metata                                 (0.                  (1.          02 to 0.01)
Fluids &: elecrolyes                           (3.                  (2.7)        02 to 0.02)
Hematology
            Inection                           (1.9)                (1.3)         01 to 0.02)
            Caoma                              (3.                  (2.7)         02 to 0.02)
            Other                              (1.                  (4.3)        06 to    01)
Psychiatr
            Alcohol                            (1.5                 (1.5)         02 to 0.2)
            Drugs                              (1.5                 (1.3)         01 to 0.02)
            Other                              (2.7)                (2.7)         02 to 0.02)
Neurlog
            Vas accdent                        (4.2)                (4.3)         03 to 0.3)
            Caoma                              (0.8)                (1.           02 to 0.01)
        Other                                  (1.2)                (0.           01 to 0.02)
Ophthalmolog                                   (1.                  (0.           01 to 0.2)
Otolagolog                                     (0.                  (0.           01 to 0.01)
Cardiolog
            Arhytmi                            (3.5)                (3.3)         02 to 0.3)
            Inion                             (11.                  (9.           02 to 0.(6)
            Heart faur                         (7.                 (10.           07 to 0.02)
            Other                              (0.                  (0.           01 to 0.01)
Peripheral
Pulmonology
            vas                                (1.                  (1.4)         01 to 0.02)

           Lung caoma                          (2.7)                (3.           03 to 0.02)
            Pneumoni                           (6.                  (6.           03 to 0.3)
            Chnic obstrction                   (8.                  (7.           03 to 0.4)
Gastrnterolog
            Caoma                              (5.                  (6.8)         OS       02)
                                                                                       to 0.

            Bleeing                            (2.7)                (2.4)         01 to 0.3)
            Other                              (6.                  (5.           02 to 0.4)
Urolog
       Caoma                                   (5.                  (3.           01 to 0.4)
       Other                                   (4.                  (3.           02 to 0.3)
Gyeclogica caoma                               (2.)                 (3.           03 to 0.02)
Bret carcoma
                                  (1.)                 (1.)          02 to 0.01)
Orthopeics
            Back                               (1.)                 (1.4)         02 to 0.02)
            Hip                                (2.7)                (2.2)         02 to 0.3)
            Knee                               (0.                  (0.5)         01 to 0.01)
Traum                                          (2.7)                (2.6)         02 to 0.02)

Total                                259     (100.)        847    (100.




Appendix G-2: Major dignostic categories causing multiple    dihaes
 (percnt              Readmiions    Nationa DRG          (95% confdence

distribution)             saple    Validation Study              interH

 Caiolog                    (23.               (23.5)         03 to 0.03)

 Pulmonology                (16.               (14.        (0.01 to 0.05)

 Gastronterlogy             (14.               (15.3)         04 to 0.01)

 Other                      (45.               (47.           06 to 0.02)

 Total                     (100.             (100.
Appendix 0-3:   Dis by redmiion ren
                      Preous premature     Planned     Related    Unrlated   Total
                              diharge    redmision   redmiion    redmiion
Nonspefic metata
Fluids & electrlyes
Hematology
           Inecion
           Caoma
           Other
Psychitr
           Alcohol
           Drugs
           Other
Neurlog
           Vasla accdent
           Caoma
        Other
Ophthalmolog
Otolarygolog
Cardiology
           Aria
           Inrcon
           Hea faure
         Other
Periphera vasul
Pulmonolog
           Lug carcioma
           Pneumoni
           Chnic obstruction
Gastronterology
           Caoma
           Bleeing
           Other
Urology
        Caoma
        Other
Gyeclogical caoma
Bret carcoma
Orthopecs
           Back
           Hip
           Knee
Traum
Total                                                      321         194     588
Appendix 0-4:   Dis by numbe of dihages
Dishaes pe patient                              Total

Nonspefic metata
Fluids & elecrolyes
Hematology
            Inecion
            Caoma
            Other
Psychiauy
            Alcohol
            Drugs
            Other
Neurlogy
            Vasla accdent
            Caoma
            Other
Ophthaolog
Otolarygolog
Cardology
            Arythm
            Infon
            Hea failur
          Other
Periphera   vaul
Pulmonolog
            Lug caoma
            Pneumoni
            Chnic obstruction
Gastronterlogy
            Caoma
            Bleeg
            Other
Urology
       Caoma
       Other

Gyeclogca caoma

Bret caoma
Orthopecs

            Back

            Hip

            Knee

Traum
Tota                                      111     259




Appendix H- 1:      Clical reew
                         Numbe    (Rte)
Unnecry admiions            112   (13.

Poor quality                       (4.

Pretur dihages                     (1.

Appendi H-2:        Clica reew compan
(Rate)               Readmions        National DRG      (95% confidence
                         saple       Validation Study              intem)
Unnecry admiions (13.                          (10.)      (-0.01 to 0.4)
Poor quatyca (4.
Prematur dishae            (1.2)
                                                (5.5)
                                                (0.8)
                                                          (-0.02 to 0.01)
                                                          (-0.01 to 0.01)



Appendi H-3:     Dis by clica reew
                             Unnec                                          Pretur
(Rte)
                                   admion
                                                   Poor quality
                                                                            die
Nonspec metata                         (0.)               (0.)                 (0.
Auids &. eleclyes                    (13.                 (0.)                 (0.)
Hematology
             Inecon                   (9.                 (0.)                 (9.
             Caoma                   (13.                (18.                  (0.)
             Other                   (46.                 (0.)                 (0.)
PsychitI
             Alcohol                 (23.                 (0.)                 (0.)
             Drugs                     (0.)               (0.)                 (0.)
             Other                   (26.                 (8.                  (0.)
Neurlog
             Vas accdent               (5.               (16.                  (28)
             Caoma                    (11.)              (11.                  (0.)
             Other                    (125)              (37.5)                (0.)
Ophthology                            (83.3)              (0.)                 (0.)
Otolagology                            (0.)               (0.                  (0.)
Cardiolog
             Arythmi                   (7.                (0.)                 (0.)
             Intion                    (8.5)              (1.2)                (1.
             Hea faur                  (3.5               (5.8)                (1.2)
             Other                     (0.)               (0.)                 (0.)
Peripheral                            (16.                (8.3)                (0.)
Pulonology
             Lung caoma               (30.                (0.)                 (0.)
        Pneumoni                       (1.)               (5.                  (0.)
        Chrnic obstrction              19.5)              (1.6)                (0.)
Gastronterlogy
             Cacioma                  (224)               (6.                  (1.
             Bleeing                   (5.               (10.)                 (5.
             Other                    (14.3)              (4.8)                (24)
Urology
             Caoma                    (16.                (6.5)                (3.
             Other                     (9.                (3.                  (3.
Gyeclogical carcinoma                 (18.5)              (3.                  (0.)
Bret carcioma                          (0.)               (0.)                 (0.)
Orthopeics
             Back                     (21.4)              (7.                  (0.)
             Hip                       (5.3)              (5.3)                (0.)
             Knee                      (0.                 (0.)                (0.
Traum                                 (227)                (4.5)               (4.5)

Tota                                  (13.                 (4.                 (1.2)
Appendi 1- 1: HCFA comments


                                Ca of theDrftHeathRertCa Finin Adsttion
                                  on the OIG                ''Hosita Redmssions.
                                                     01 -12-88-01120



             Retion
             HCF shc:dreuate th effeciven of Pe Reiew Oranzation
              (:E) sweilan of redmion ver sweillan of raam
              admion.

             we do      mt     co with
              cu swillan of redmion
                                            th          enti
                                                        ur    on. Fir,ca dintinue
                                                              cu law. Seon
                        (Qn SeityReiliation                  re        am Seion          1952 of



                                        di coion in,re
                                                    the seta to reiew a
                                                                          of 1986)
                       th soiaBuet               Ac
                     L. 99-509
                                       Ac to
              1154 (a) of

              c:e.
              sale of redmion
                        To
                                ocinsu   with
                                        reiew wod
                                                        th preiou31 days of
                                                          a legislative
              cle. ize cod violate
                           beieve                   reon    in th reiew
               co
              sale
              be
              Prve             Sy
                                  tht
                              we also

                                  with
                                 Paym
                                      ar  signfica
                                         th cier of pretu c:es
                                                 (Pm).

                                                                coinues to as

                                                                                ur th Meca
              5er- th awy reiew a sele of                     redmion

              duin '"en Yea
                                 OIG
                                        fou 1!t  th
               signficay differ fr ot hbitaization
                                           1985 am     redmion
                                                            th
                                                                  did no
                                                                           al Pm

              un

                        Fr th, the rert
                                  rli
                                       quity ca,
                                         ion, por.
                                          colud
                                                   or
                                                   tht
                                                         in
                                                      pretu   c:e"
                                                               rate of
                                                                 of redmions
                                                                    of ca for
                                                                           :E reiew
                                      iniden th
               (Page i).


              with 1 yea of
              reion
                             the fim
              idenfies no mre clinca
              reiew. Haoer,
                         whch oc with
                                        di
                               s reiew we limte
                                                s reiew of redmion ocin

                                                            af c:e.
                                                                 die,
                                                                         rac: seecion
                                     clealy ca be awlied to the PR reiew of
                                                      fra OIG'

                                                       31 days of th preiou

                     of enin an en yea, th petage of clinca
              beieve
              ind         tht if OIG'

              inide wod have be nu high. '! lOBer th ti peiod us
                                                                 to 31 days


              the sale fra, th mre thsale reles rac: sale.

              'l, ca      ignre th prole "sein" effec of :E reiew on
              ealy ressions. Whe it is no p:lble to me the detet
                    we

              as
              effec of :E     pretu hosita c:es,
                                reiew on              it is renale
                          ab wod oc if PR we no reiewin ealy
              reion ca.   tht DDre


              Rection
              HCF shc:d
              he1lobinthes.      st th effecven of :E utization                      reiew of
Page 2



Rens
     digr         Lt:ILLttion. Fir, th eIG prets no eviden
un.
We
tht a  high nu of th adion for helooi.thes
            with

inteified reiew on
physician reiew
                     th




                                 al
                   In adtion, FR havebe inct foc
                           clinca suts,
                                  su
                     ha dete tht th   heloointhes, if              is a
                                                                       as
                                                                            prOlem with
                                                                                          to
admion.
Rection
HCFshd dete
exc:tion       whth
         of heloointhes
                                           prim am

                                                                 co les Meca reur
                                                                              acu
                                                                               prevention of
                                                           wod
th rete hositaization.
Rens
          co nowith th retion. As stte
We also do
         coer                      cota                                                 in the report,


preenive me, su as gentic sc
              by       .uudXtion                                       ar no               in the
Meca mate. In adtion, in th Meca poation, prim
th                             th




litte reev. '!e se                  suescoiI                              am famy                   have
          hydtion am actvity reicton, al offer litte
                                                                                            in the
rert,
                                                 preenve

          such as
clinca reev. :t hoitaization for helobinthes                                               in the
eldely.
Ge
 an                este savin of aJ milion in
      :m co ar grte th th act savir tht wod ret
     We beieve tht eIG'                                                          $111
 fr elimtion                       ion.
                          of :m reiew of                         nmi

        s esilte for th co of th ty of reiew is
                    milion for th en th cotrct cycle.
          HCF'
   aprotey
   Sin th-ro
                            $110
                                     for th yea, the
   an     di co of ealy reion
   approtey
                                    contct ar normly
                                          ce                              reiew woud
                                                                        ar no        how eIG
                            $35 to $45 milion. We
          develop the $111 milion savir                            este.
          in
          In pa,



          nesary to
          redmions.
                          poal
                 in the num
                          cate
                               savin wod be offset by even a slight
                                          le reiew, whch would be
                                             of raan

                                for elimti :m reiew of ealy
                                                                                     su
Page 3





       CClai,
               '!er cod
        actvity .
                  whch wod ret in exy co-inteive PR
                                    also be an     in       in the        nu of
    '! rert is urea in ma place. we ha difficuty unerta
    th sele seecon, th criteia for clasifyin redmssions, the
    sttica meth us,
                             be   te,      fWis. '!e
                                                   an th tales an th
    tales an figu. we:r fuly intin the te an
    native mves back an                 tales an
                                               fort
    aw     tales tht ar refer, tht th rede ca
               ion, (e.g. re
                                                                                           nore
    rey         thfollCM       us inse or      ion.
                                        data an logic
                                                                SO
                                                                            rli           Also, much

                  is no ge to th ce ises. '!e
                                                                     th

    of
    d1ctiscs)
          th     rli                      hoita             age,
    rEliuermti             fra th fWi.
                            on do no flCM
Edtoial
                      pa,   th fir
                               stte tht
     di
    Page 3 - In
    reiew reate redmion
    of
    wsfr
    reion
                           'I is ocin
                          hoitas inrr.with
                               ir tht
                                           ful
                                        '!e sale
                             to th sa hoita.
                       all reate              rli !:s
                                                        to PP
                                                    hoita.
                                                     ion with 7
                                                                lin 3


                                                                          days; it
                                                                                         the PR

                                                                                     ws no tied to
                                                                                                  7 days




    '!e las
      sc 'I                  se-in the         semate
                                                  fu pagtt:  reds as if in
                                                      reiew of ony reate
                                                                                             the new
    PR
    admion.
            pe    inrr. of all redmions
                         of work,
                                  sc to HC stl
                                                                In th ne               of work, the
    hoitas cx with
                                        is also.
    reiew is a 25
                         die                 raan sele
                                                   31 days of                     fra a PP hosita.

    In th th fu        , lin 1, th is th sa err
    reion    to th sa hoita.

    In th        fou ful                                un ' 'Plan redmions, " HCF doe

    no pet plan redmion
    proided in on sty .

                                                         wh th saice shoud have
    Page 14, Bulet 2 also stte in err                            tht the PR reiew wa limte

    to redmion to th sa hoita.
